        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
Department of Energy's
Interconnection Transmission
Planning Program Funded through
the American Recovery and
Reinvestment Act of 2009




OAS-RA-13-26                        June 2013
                                  Department of Energy
                                     Washington, DC 20585
                                           June 19, 2013


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ELECTRICITY DELIVERY
               AND ENERGY RELIABILITY


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audit and Inspections
                         Office of Inspector General

SUBJECT:                  INFORMATION: Audit Report on "The Department of Energy's
                          Interconnection Transmission Planning Program Funded through the
                          American Recovery and Reinvestment Act of 2009"

BACKGROUND

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), the Department of
Energy's Office of Electricity Delivery and Energy Reliability received about $4.5 billion to
modernize the electric grid. About $80 million of this funding was designated for the
Interconnection Transmission Planning Program to facilitate the development or strengthening of
capabilities in each interconnection. The transmission infrastructure in the United States is
separated into three distinct electrical networks, or interconnections – the Western, Eastern, and
Texas interconnections. The Department allocated $60 million to five organizations under
cooperative agreements to perform work for the interconnections and $20 million to the
Department's national laboratories to provide technical support to those organizations.

The cooperative agreements covered two broad topics: (1) interconnection-level analysis and
planning, and (2) coordination and cooperation among states on electric resource planning and
priorities. Awardees were to work collaboratively in each interconnection to support and greatly
expand ongoing resource assessment, and regional and interconnection-level transmission
analysis and planning. As a result of these planning efforts, each of the awardees were to
produce long-term resource and transmission planning studies in 2011, with updated documents
in 2013, to provide critical information to stakeholders in developing a modernized electricity
system.

This report is the third in a series of reports on the Department's funding to modernize the electric
grid. Our January 2012 report, The Department's Management of the Smart Grid Investment
Grant Program (OAS-RA-12-04, January 2012) identified weaknesses in financial management,
and incomplete and insufficient cyber security plans, potentially jeopardizing achievement of
Recovery Act goals. In addition, our January 2013 report, The Department of Energy's $700
Million Smart Grid Demonstration Program Funded through the American Recovery and
Reinvestment Act of 2009 (OAS-RA-13-08) identified weaknesses in reimbursement requests,
cost-share contributions, and coordination efforts with another Department program.
Because of the substantial Recovery Act funding and the national importance of an efficient and
effective electricity delivery system, we initiated this audit to determine whether the Program has
been efficiently and effectively managed.

RESULTS OF AUDIT

We found that the Department had generally established and implemented a system of internal
controls for managing the announcement, review and selection of cooperative agreement funding
recipients. Also, the recipients had released the required planning studies to the public in 2011.
During our audit of the five recipients, however, we found that the Department had not
adequately managed reimbursements to recipients for consultant compensation. As such, we
questioned the payment of $86,000 in payments to consultants.

                                    Consultant Compensation

We found that the Department paid, in our opinion, excessive consulting compensation rates for
two of the five recipients. Federal regulations state that in order for a cost to be allowable, it
must be reasonable and not exceed the amount that would be incurred by a prudent person.
However, we found that:

    •   The Department had reimbursed one recipient for a consultant at a flat fee of $6,160 per
        month regardless of the number of hours worked on the project. The recipient stated the
        Department insisted that it hire a facilitator. In response, the recipient hired a consultant
        responsible for facilitating stakeholder input and involvement into activities related to
        the long-term interconnection planning studies. The recipient's contract with the
        consultant stated the flat fee would be for work up to 28 hours per month, with any
        additional work paid at the rate of $225 per hour. However, the contract did not require
        a minimum number of hours to be allocated to the project. The Department had
        previously approved as reasonable budget plans submitted by the recipient that were
        based on hiring an employee to function as the project facilitator at a cost of $52.29 an
        hour at a 40-hour per week level of effort.

        Our review found that the recipient generally lacked support for the number of hours
        worked by the consultant. We noted that during a month in which the consultant
        submitted support for hours, the consultant reported working 7.5 hours (which equated to
        $820 per hour) on the project, which was substantially less than the level of effort the
        Department had used as a basis for its reasonableness determination. Department
        officials had not requested or reviewed the contract between the recipient and consultant
        to ensure the charges corresponded to the budgeted amount. The consultant stands to
        receive over $160,000 over the 26-month contract without any minimum time
        stipulations. Although Department officials told us that there was a value associated with
        having guaranteed technical expertise available on a monthly basis, as previously noted,
        the Department had essentially based its reasonableness determination on a 40-hour work
        week. As of July 2012, the consultant had been paid about $86,000, an amount we
        questioned because it was not supported by adequate documentation and was based upon
        a level of effort significantly less than that previously used by the Department to
        determine reasonableness.

                                                 2
   • The Department had accepted excessive consultant rates without negotiation with another
     recipient. We noted the following examples of excessive consultant rates at this
     recipient:

          The recipient claimed and was reimbursed for consultant rates up to $650 per
           hour. During the initial award phase, the recipient submitted an estimated budget
           that contained hourly rates ranging from $147 to $578 per hour for technical
           modeling work by a consulting company. Department officials accepted the rates
           based on the rationale that the consultant's work was highly specialized and that
           this specific consulting company was the only one capable of performing such
           work. However, according to the recipient, while there were other contractors
           with the ability to perform this kind of work, the consultant was selected because
           it had a more user friendly model than other companies. Even though the
           recipient stated that other qualified contractors were available, the Department had
           not questioned or attempted to negotiate the rates with the recipient. Further,
           Department officials stated they had not reviewed the rates of the consultant since
           the start of the project. For the period we reviewed, over $1 million of the $1.8
           million spent by the consulting company was for labor rates between $475 and
           $650 per hour. Department officials stated that this rate included various items,
           such as overhead and access to proprietary software and databases. However, the
           Department did not provide a breakdown with respect to the composition of the
           categorized rates and based the determination of reasonableness on the number of
           labor hours per category.

          In addition, we were informed by the recipient that the Department's approved
           hourly rate for another consultant hired as the project manager included
           compensation for the cost of business insurance, an allowance which we found far
           exceeded the actual cost of the insurance. By approving the hourly rate that
           included an 8 percent cost element for business insurance, the Department
           allowed the consultant to receive about $60,000 in reimbursements for insurance
           costs even though costs were only about $20,000 according to documentation we
           received from the recipient during our review. Department officials told us that
           they did not have information about the insurance cost element built into the
           approved hourly rate. In our view, the lack of information about the insurance
           cost element in the approved hourly rate demonstrates the importance of the
           Department obtaining sufficient information about the components of rates in
           making reasonableness determinations.

          Finally, the same project manager's rate was significantly higher than the rates
           paid to other project managers working on the other interconnection cooperative
           agreements. The hourly rate of $231 paid to the project manager exceeded the
           rate of the next highest compensated project manager by over $100 per hour.

Although Department officials told us that they considered factors such as the level and
difficulty of the work performed, the qualifications of the consultant, and pay rates of
comparable individuals doing similar work, consideration of such factors was not documented.


                                             3
 Instead, the documented record shows that during the award process the Department concluded
 that $231 per hour was reasonable based on an online salary inquiry. We were unable to
 duplicate the results of the online survey given the search parameters provided by the
 Department. When we asked for clarification on the review of the hourly rate, Department
 officials stated that the project manager's rate was reasonable based on the individual's prior
 experience and a comparison of rates found online ranging from $72 to $967 per hour.
 Although the interconnections each have unique aspects and different challenges, the basic
 project deliverables, responsibilities and duties of the project managers are very similar. These
 factors would have made a direct comparison of project manager rates both logical and
 reasonable.

Given that the Department had accepted and determined the project manager's rates to be
allowable, we are not questioning the reimbursements made to the recipient. However, the
Department should take action in the future to ensure that rates to consultants are reasonable.

                                  Monitoring Financial Transactions

These issues occurred, in part, because the Department had not always effectively monitored the
financial transactions of the recipients. In one of the examples, Department officials had not
reviewed the contract or the facilitator's invoices and were unaware of the contract's terms and
conditions because the recipient had not been required to submit supporting documentation as
stated in the award agreement. Department officials stated that because the overall budgeted
amount for the facilitator had not been exceeded, and the terms and conditions had not required
Department approval, the recipient was within its authority to negotiate and approve this
contract. However, Department officials also stated that corrective actions had recently been
taken by the project management center to implement a sub-award/subcontract change
notification provision into all financial assistance awards. Specifically, the provision states that
recipients must notify the Department in writing prior to the execution of new or modified sub-
awards/subcontracts not originally proposed in the application. We find these actions responsive
to the identified weakness.

We also found that the Department lacked a defined negotiation strategy with the recipients for
determining the reasonability of consultants' rates. In fact, in an interview with Department
officials, a project officer stated that she had initially expressed surprise regarding the high
hourly rates proposed for consultants, but did not question or attempt to negotiate the rates.

Finally, we identified about $3,000 in expenses claimed by two recipients prior to their
authorized spending date. To their credit, the recipients took prompt action to reverse the
expenses once we notified them that the expenses did not appear to be permissible under the
terms of their award.

RECOMMENDATIONS

The Recovery Act provided an unprecedented amount of funding to the Office of Electricity
Delivery and Energy Reliability to modernize our Nation's energy infrastructure. Although three
of the five recipients stated the projects will likely end under budget with a surplus of funds, it is



                                                  4
imperative that the Department effectively and efficiently manage each project to ensure that
taxpayer dollars are being protected. Accordingly, we recommend that the Assistant Secretary
for Electricity Delivery and Energy Reliability direct program officials to:
    1. Develop and document negotiation strategies relating to consultants' rates.

Additionally, we recommend that the contracting officers for the Interconnection Transmission
Program:

     2. Resolve the questioned costs discovered during our review totaling about $86,000.

MANAGEMENT COMMENTS
Management partially concurred with Recommendation 1. Management responded that it is the
responsibility of recipients to exercise their business judgment in determining the reasonableness
of the consultant requirements. However, the Department acknowledged that it has an important
oversight role in evaluating estimated budgets in this area to determine whether the consultant
cost is reimbursable as an allowable cost. Department officials indicated a revision to their best
practices guide will be initiated by August 2013, to assist staff in enhancing the quality of their
cost analysis techniques related to consultants' rates.

Management did not concur with Recommendation 2, to resolve the questioned costs identified
in our report. Officials asserted that the recipient was within its authority to negotiate and
approve sub-awards and had not exceeded the approved budgeted amount. Officials also noted
that the Department would consider providing additional oversight and guidance to recipients on
sub-award fee structures such as the one identified in our report. Finally, officials stated the
contracting officer determined the questioned costs would not be disallowed based on
unreasonableness.

AUDITOR RESPONSE

We found the corrective actions proposed by management to Recommendation 1 to be
responsive. Additionally, although management did not concur with Recommendation 2, we
found that the Contracting Officer's determination on the allowability of the questioned costs in
effect resolved them. Therefore, we consider this recommendation to be closed. However, we
do not agree with the Department's assertion that the question of whether the recipient took
maximum advantage of the fee structure was outside the Department's purview. As noted in our
report, because the hourly rate and level of effort changed from what was originally determined
to be reasonable and the amounts were not adequately documented, we believe the Department
was well within its authority to question the sub-award. However, as previously noted, the
Department recently took action to include a sub-award/subcontract change notification
provision in all future financial assistance awards. Recipients must now notify the Department
in writing prior to the execution of new or modified sub-awards/subcontracts not originally
proposed in the application. This action should alleviate concerns about recipients changing
terms of their sub-awards/subcontracts without the Department's knowledge.




                                                 5
Management's comments are included in their entirety in Attachment 3.

Attachments

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Acting Chief of Staff




                                              6
                                                                                    Attachment 1


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of the audit was to determine whether the Interconnection Transmission Planning
Program funded through the American Recovery and Reinvestment Act of 2009 (Recovery Act)
had been managed efficiently and effectively.

SCOPE

This audit was performed between July 2012 and June 2013, at the Department of Energy's
(Department) Headquarters in Washington, DC, and the National Energy Technology Laboratory
(NETL) in Morgantown, West Virginia and Pittsburgh, Pennsylvania. The audit included a
review of the $60 million awarded through cooperative agreements to five organizations and did
not include the $20 million in funding distributed to the national laboratories through a research
call. We conducted reviews of all six projects performed by five organizations, both on-site and
remotely.

METHODOLOGY

To accomplish the audit objective, we:

    •    Obtained and reviewed relevant laws and regulations related to implementation of the
         Recovery Act and financial assistance award administration.

    •    Reviewed the Funding Opportunity Announcement, merit review information and
         selection documentation.

    •    Interviewed officials and analyzed financial transactions and implementation of
         financial assistance requirements as prescribed by the terms and conditions of the
         awards.

    •    Performed a complete review of invoices submitted for reimbursement for five of the
         six projects to determine that costs were allowable, allocable and reasonable. After a
         preliminary review of 54 percent of invoiced amounts for the sixth project revealed
         no issues, we selected a judgmental sample of 42 of the remaining 692 invoices,
         based on dollar amount, unique contractors or vendors not previously reviewed
         transaction description and bonuses. Because this sample was selected judgmentally,
         results could not be projected to the universe of invoices for that project.

    •    Obtained access to the Department's Strategic Integrated Procurement Enterprise
         System and reviewed individual award files for the six projects.

    •    Interviewed project officers and contracting personnel for each of the six awards.

    •    Conducted interviews and meetings with Program officials.



                                                7
                                                                         Attachment 1 (continued)

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. The audit included tests of
controls and compliance with laws and regulations necessary to satisfy the audit objective. We
also assessed compliance with the GPRA Modernization Act of 2010. We examined the
established performance measures related to the Program. Because our review was limited, it
would not necessarily have disclosed all internal control deficiencies that may have existed at the
time of our audit. Finally, we conducted an assessment of computer-processed data relevant to
our audit objective and found it to be reliable.

We conducted an exit conference with the Department on June 11, 2013.




                                                 8
                                                                              Attachment 2

                               PRIOR REPORTS

•   Audit Report on The Department's Management of the Smart Grid Investment Grant
    Program (OAS-RA-12-04, January 2012). The audit revealed several opportunities to
    enhance management of the Smart Grid Investment Grant (Smart Grid) Program. The
    problems that were discovered could jeopardize achievement of the American Recovery
    and Reinvestment Act of 2009 (Recovery Act) goals. In particular, auditors found that
    the Department of Energy (Department) officials approved Smart Grid projects that used
    Federally-sourced funds to meet cost-share requirements. In addition, one recipient was
    reimbursed twice for the same costs related to transportation. Furthermore, three of the
    five cyber security plans (required to be submitted by grantees) that were reviewed were
    incomplete, and did not always sufficiently describe security controls and how they were
    implemented. Issues identified in the audit report were due, in part, to the accelerated
    planning, development, and deployment approach adopted by the Department for the
    program. In particular, the Department had not always ensured that certain elements of
    the program were adequately monitored. The audit also found that the Department was
    so focused on quickly disbursing Recovery Act funds that it had not ensured personnel
    received adequate grants' management training.

•   Audit Report on The Department of Energy's $700 Million Smart Grid Demonstration
    Program Funded through the American Recovery and Reinvestment Act of 2009 (OAS-
    RA-13-08, January 2013). The audit found that the Department had not always managed
    the $700 Million Smart Grid Demonstration Program effectively and efficiently. A
    review of 11 projects, awarded $279 million in Recovery Act funding and $10 million in
    non-Recovery Act funding, identified weaknesses in reimbursement requests, cost-share
    contributions and coordination efforts with another Department program. The problems
    identified occurred, in part, because the Department had not adequately reviewed
    financial transactions, and planned for or monitored recipient cost-share provisions. In
    total, $12.3 million in costs claimed by the recipients were questioned. Auditors noted
    that without improvements in project management, the success of the efforts awarded
    under the Recovery Act were ultimately at risk. The Department concurred with the
    recommendations and indicated that corrective actions have been taken or would be
    initiated to improve the management of the Program and to resolve questioned costs.




                                           9
                      Attachment 3


MANAGEMENT COMMENTS




        10
     Attachment 3 (continued)




11
     Attachment 3 (continued)




12
                                                                    IG Report No. OAS-RA-13-26


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

      1. What additional background information about the selection, scheduling, scope,
         or procedures of the audit or inspection would have been helpful to the reader in
         understanding this report?

      2. What additional information related to findings and recommendations could have
         been included in the report to assist management in implementing corrective
         actions?

      3. What format, stylistic, or organizational changes might have made this report's
         overall message more clear to the reader?

      4. What additional actions could the Office of Inspector General have taken on the
         issues discussed in this report that would have been helpful?

      5. Please include your name and telephone number so that we may contact you should
         we have any questions about your comments.


 Name                                          Date

 Telephone                                     Organization

 When you have completed this form, you may telefax it to the Office of Inspector General at
 (202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

 If you wish to discuss this report or your comments with a staff member of the Office of
 Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer
friendly and cost effective as possible. Therefore, this report will be available electronically
through the Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                     http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
